*

EXHIBIT A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1355

Timothy O’Laughlin
Plaintiff - Appellant
v.
The Boeing Company; Dan Schell; Bob McDaniels
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-CV-01552-NCC)
JUDGMENT

Before BENTON, KELLY, and KOBES, Circuit Judges.
Appellant’s motion for leave to proceed on appeal in forma pauperis is granted. This
court has reviewed the original file of the United States District Court. It is ordered by the court
that the judgment of the district court is summarily affirmed. See Eighth Circuit Rule 47A(a).
March 24, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E, Gans

EXHIBIT B

Case 4:18-cv-01552-NCC Document 28 Filed 01/04/21 Page 1 of 2 PagelD 102

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
TIMOTHY O’LAUGHLIN,
Plaintiff,
v.

THE BOEING COMPANY, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

No. 4:18-CV-1552 NCC

MEMORANDUM AND ORDER
Before the Court is plaintiffs post-appellate motion for reconsideration of the dismissal of
his employment discrimination lawsuit. After reviewing the grounds raised by plaintiff, the Court
will decline to alter or amend the judgment of this Court. The Court concludes that plaintiffs
motion fails to point to any manifest errors of law or fact, or any newly discovered evidence.
For example, plaintiff has still failed to produce a timely filed charge of discrimination in
this action, stating instead that although he filed a timely charge, it was “lost in a fire.” This directly
contradicts his sworn testimony in his complaint that although he was terminated by The Boeing
Company in August of 2000, he did not file a charge of discrimination with the EEOC until
October of 2010, over nine years later. Therefore, plaintiffs filing was way outside the 300-day
time period required by 42 IJ.S.C. § 2000e-5(e)(n and his case is subject to dismissal for failure
to timely exhaust his administrative remedies. Plaintiff is therefore not entitled to reconsideration
of the dismissal of this action, and his motion will be denied.
To the extent plaintiff wishes to bring arguments relative to his competency and his request
for conditional or unconditional release from confinement, he must file a separate habeas action in

Appellate Case: 21-1355

Page: 12

Date Filed: 02/16/2021 Entry ICF£ttNM9£a6 2021 pl2

Case 4:18-cv-01552-NCC Document 28 Filed 01/04/21 Page 2 of 2 PagelD 103

Rochester, Minnesota. Plaintiff will not, however, will be allowed to file any additional motions
in this closed action.
Accordingly,
IT IS HEREBY ORDERED that plaintiffs motion for reconsideration of the dismissal
of his employment discrimination action [Doc. #27] is DENIED.
IT IS FURTHER ORDERED that an appeal of this action would not be taken in good
faith.
IT IS FURTHER ORDERED that to the extent plaintiff wishes to bring arguments
relative to his competency and his request for conditional or unconditional release from
confinement, he must file a separate habeas action in the United States District Court for the
District of Minnesota.
IT IS FURTHER ORDEREED that plaintiff shall not be allowed to file any additional
motions or filings in this closed action. Any filings by plaintiff in this action shall be returned by
the Clerk of Court.
Dated this

day of January, 2021.

RONNIE L. WHITE
UNITED STATES DISTRICT JUDGE

2

Appellate Case: 21-1355

Page: 13

Date Filed: 02/16/2021 Entry ICF<SfiHDi4®£a6 2021 pl3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1355
Timothy O'Laughlin
Appellant
v.
The Boeing Company, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:18-cv-Ol 552-NCC)
ORDER
The initial and amended petitions for rehearing en banc are denied. The initial and
amended petitions for rehearing by the panel are also denied.
May 10, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is! Michael E. Gans

Appellate Case: 21-1355

Page: 1

Date Filed: 05/10/2021 Entry ID: 5033496

Additional material
from this filing is
available in the
Clerk's Office.

